APPENDIX

1a
APPENDIX A
STATE OF NEW YORK
COURT OF APPEALS
MEMORANDUM
No. 66 SSM 5
The People &c.,
Respondent,
v.
Darryl Hemphill,

This memorandum is
uncorrected and subject to
revision before publication in
the New York Reports.
[DECIDED June 25, 2020]

Appellant.

Submitted by Claudia Trupp, for appellant.
Submitted by Noah J. Chamoy, for respondent.
MEMORANDUM:
The order of the Appellate Division should be
affirmed.
Defendant appeals from the judgment of
Supreme Court, Bronx County convicting him after
trial of murder in the second degree and sentencing
him to twenty-five years to life in prison. The defense
was third-party guilt. On appeal, defendant renews
his challenges to the sufficiency of the evidence, the
integrity of the grand jury proceedings and various
trial rulings.
While there was evidence of third-party
culpability, a rational jury nevertheless could have
concluded that defendant was guilty (see People v
Danielson, 9 NY3d 342, 349 [2007]). The jury was

2a
free to reject defendant’s claims about the witnesses’
initial identifications of someone else as the shooter
(cf. Ando v Woodberry, 8 NY2d 165, 171 [1960]).
Contrary to defendant’s claim that the indictment
should be dismissed based on the prosecutor’s failure
to alert the grand jury to exculpatory evidence that
implicated another, the People were not obligated to
present evidence that someone else was initially
identified as the shooter (see People v Mitchell, 82
NY2d 509 [1993]; People v Lancaster, 69 NY2d 20,
25-26 [1986]).
With respect to the other claims raised by
defendant, we note that trial courts possess broad
discretion to make evidentiary rulings and control
the course of cross-examination (see People v Rouse,
34 NY3d 269, 278-279 [2019]; People v Jones, 24
NY3d 623, 629 [2014]). Here, the trial court did not
abuse its discretion by admitting evidence that the
allegedly culpable third party pled guilty to
possessing a firearm other than the murder weapon.
Nor did the court abuse its discretion in its treatment
of a controversy concerning counsel’s attempt to
impeach a witness with her prior grand jury
testimony. Notably, counsel failed to request that the
witness be recalled for questioning relating to the
particular appearance on which counsel relied.
Similarly, the trial court acted well within its
discretion in admitting photographs of the victim’s
body as not simply introduced to inflame the jury (see
People v Stevens, 76 NY2d 833, 835 [1990]), and in
determining that their relevance was not outweighed
by danger of undue prejudice to defendant (see
People v Primo, 96 NY2d 351, 355 [2001]). The trial
court’s other evidentiary rulings were similarly

3a
within the court’s discretion, as was the court’s denial
of defense counsel’s same-day oral request to adjourn
sentencing to investigate grounds for a possible
motion to set aside the verdict (cf. People v Spears, 64
NY2d 698, 699-700 [1984]).
Defendant’s
remaining
unpreserved or without merit.

contentions

are

FAHEY, J. (dissenting):
I would reverse. The trial court abused its
discretion in denying defense counsel’s request to call
as a witness the court reporter in a 2007 grand jury
proceeding.
I.
The underlying events began with a street fight
in March 2016 between two men, including trial
witness Ronnell Gilliam, on the one side, and a group
of three men and two women, including trial witness
Brenda Gonzalez, on the other. Gilliam’s accomplice
was described by eyewitnesses as a thin black man
wearing a blue shirt or sweater. After the fight broke
up, a slim black man in a blue top returned to (or
arrived on) the scene with a gun and opened fire. The
gunfire killed a two-year-old passenger in a minivan
that happened to be in the vicinity.
An eyewitness named Michelle Gist, who had
observed the initial fight, but not the shooting, told
the police that Gilliam and his best friend Nicholas
Morris had been at the scene. Morris was arrested,
and ammunition consistent with the type of bullets
used in the shooting was found at his apartment.
Gonzalez and two of her companions identified

4a
Morris in a lineup as the shooter. Meanwhile, at
Gilliam’s apartment, the police had found a blue
sweater inside a plastic bag.
Gilliam turned himself in and spoke with the
police. He identified Morris as the shooter. Later,
Gilliam returned to the police station, recanted his
identification of Morris, and now stated that the
shooter had been defendant Darryl Hemphill. During
this second interview, Gilliam received a phone call
from Morris.
Grand juries were convened in 2006 and 2007, at
which witnesses identified Morris as the shooter. At
the 2006 grand jury proceedings, held on the basis of
the evidence against Morris, Gonzalez did not
identify Morris by name as the shooter. At the 2007
grand jury proceedings, Gonzalez expressly identified
Morris by name as the shooter.
Morris went to trial for the killing. After a
mistrial and a negative DNA swab of the sweater
found in Gilliam’s home, the People decided to
abandon prosecution of Morris. Then, after the DNA
on the sweater was found to match Hemphill instead,
defendant was arrested.
At the second trial, Gilliam testified, pursuant to
a cooperation agreement, that defendant had been
the shooter. Gist identified defendant as the thin
black man present at the initial fight, but she was
impeached with her prior statements to the police
that Morris, not Hemphill, had been at the scene.
Gonzalez and the others in her party described the
shooter as a tall, thin black man in a blue sweater or
shirt, without identifying Hemphill specifically.

5a
Defense counsel cross-examined Gonzalez by,
among other things, reading her 2007 grand jury
testimony, in which she had testified that there was
no doubt in her mind that she had seen Morris fire
the shot that killed the child. Counsel momentarily
confused the dates of the two grand jury proceedings
and asked Gonzalez to recall her “2006” grand jury
testimony, in which she had not identified Morris by
name as the shooter. Gonzalez denied giving the
testimony that defense counsel read to the jury. In
addition, defense counsel put broader questions to
Gonzalez, such as “Did you ever tell . . . any district
attorney that there was no doubt in your mind that
Nicholas Morris fired that shot . . .?”, to which
Gonzalez untruthfully replied, “No I didn’t.”
The trial court then permitted the People to call
the 2006 grand jury court reporter to testify that
Gonzalez in 2006 had not been asked the questions
and had not given the answers that defense counsel
had read in court (when reading from Gonzalez’s
2007 grand jury testimony). In response, defense
counsel sought to introduce testimony from the 2007
court reporter that the questions had in fact been
asked and answered in 2007. The trial court did not
grant counsel’s request, and instead suggested that
defense counsel recall Gonzalez, question her about
her 2007 testimony, and then call the 2007 court
reporter if necessary. Defense counsel declined this
alternative to the request.
On summation, the prosecutor argued that
defense counsel had “tried to get Brenda Gonzalez to
admit she said things before the grand jury in 2006
she never said” and that the People had called the
reporter “to prevent facts from being manipulated.”
During deliberations, the jury repeatedly asked to

6a
rehear the testimony from the 2006 grand jury
reporter. At this point, the parties discussed the fact
that the trial court had precluded the defense from
calling the 2007 grand jury court reporter, and the
trial court told defense counsel, “[o]kay. I understand
your position. You have an exception.”
II.
Defendant preserved for our review the issue
whether counsel should have been permitted simply
to call the reporter (see CPL 470.05 [2] [“a party who
without success has . . . sought or requested a
particular ruling or instruction, is deemed to have
thereby protested the court’s ultimate disposition of
the matter or failure to rule or instruct accordingly
sufficiently to raise a question of law with respect to
such disposition or failure”]). Indeed, the majority
agrees. While it is true, as the majority notes, that
“counsel failed to request that [Gonzalez] be recalled
for questioning” on her 2007 grand jury appearance
(majority op at 2), the majority does not assert that
defendant failed to preserve his challenge to the trial
court’s ruling on calling the court reporter.
III.
The trial court committed reversible error and
denied defendant a fair trial by refusing to allow
defense counsel to call the 2007 grand jury court
reporter, without recalling Gonzalez. This would
have enabled the defense to impeach Gonzalez by
confirming that she had in fact identified Morris, by
name, as the shooter in 2007. Notably, Gonzalez was
asked whether she had ever told a district attorney
that Morris was the shooter, and denied doing do,
even though she had testified as much in 2007. The
trial court issued its ruling despite the fact that the

7a
People were permitted to call the 2006 court reporter
to testify, in effect, that defense counsel’s questioning
was disingenuous.
The trial court’s refusal to allow defense counsel
to correct the record by calling the 2007 court
reporter was prejudicial. The ruling left the jury with
the impression that the defense had fabricated grand
jury testimony, even though it was Gonzalez whose
testimony was false. The jury was prevented from
learning that Gonzalez had identified Morris as the
shooter, by name and under oath, at the 2007 grand
jury proceeding. This was error. Although “trial
courts have broad discretion to keep the proceedings
within manageable limits and to curtail exploration
of collateral matters,” evidence that tends to show
that a witness is fabricating her testimony “is never
collateral and may not be excluded on that ground”
(People v Hudy, 73 NY2d 40, 56 [1988]). Put another
way, “there is no risk of diversionary excursions into
collateral matters where ‘[t]he substance of th[e]
contradiction goes to a material, core issue in the
case’ ” (People v Bradley, 99 AD3d 934, 937 [2d Dept
2012], quoting People v Cade, 73 NY2d 904, 905
[1989]).
For these reasons, I dissent.
*

*

*

*

*

*

*

*

*

*

*

*

*

*

On review of submissions pursuant to section
500.11 of the Rules, order affirmed, in a
memorandum. Chief Judge DiFiore and Judges
Rivera, Stein, Garcia, Wilson and Feinman concur.
Judge Fahey dissents in an opinion.
Decided June 25, 2020

8a
APPENDIX B
SUPREME COURT OF THE STATE OF NEW YORK
APPELLATE DIVISION: FIRST DEPARTMENT
The People of the State of New York,
Respondent,
-againstDarryl Hemphill,

Ind. No.
1221/13
[ENTERED:
June 11, 2019]

Defendant-Appellant.
___________________________
Robert S. Dean, Center for Appellate Litigation, New
York (Claudia Trupp of counsel), for appellant.
Darcel D. Clark, District Attorney, Bronx (Jordan K.
Hummel of counsel), for respondent
_____________________________
Judgment, Supreme Court, Bronx County
(Steven L. Barrett, J.), rendered January 6, 2016,
convicting defendant, after a jury trial, of murder in
the second degree, and sentencing him to a term of 25
years to life, affirmed.
Defendant was charged with two counts of
second-degree murder in connection with an April 6,
2006 incident in which two-year-old was shot and
killed by a stray bullet that had entered his mother’s
minivan as they were driving on Tremont Avenue in
the Bronx.
On the date of the incident, which was Easter
Sunday, Ronell Gilliam, along with a black male who
was wearing a blue sweater or blue shirt, got into a
physical fight with a group of men and women in the

9a
street around Tremont Avenue. At some point shortly
after that altercation, the fatal stray bullet was fired.
The police interviewed eyewitnesses, including
Michelle Gist, who identified Gilliam as one of the
men involved. Police searched Gilliam’s apartment
and found a blue sweater in a plastic bag.
Soon thereafter, the police suspected that
Gilliam’s best friend, Nicholas Morris, had been with
Gilliam and had committed the shooting. Police
searched Morris’s apartment and found guns and
ammunition, including a 9 millimeter cartridge, the
type of ammunition used in the shooting. The next
day, Morris appeared on a television news broadcast
on Bronx News 12, proclaiming his innocence. Morris
was arrested, and police observed bruises on his
knuckles consistent with his having been in a
fistfight. At the time of Morris’s arrest, at least three
witnesses had identified Morris to police as the
shooter.
In 2008, Morris was indicted and the prosecution
proceeded to trial against him. However, when
Morris’s DNA was compared to DNA taken from the
blue sweater recovered from Gilliam’s apartment in
2006, it was determined that there was no match.
Thus, in April 2008, the court declared a mistrial in
Morris’s case with the prosecution’s consent. In May
2008, after having served two years in prison, Morris
pleaded guilty, against his counsel’s advice, to
possessing a .357 caliber gun on the day of the
shooting, in exchange for his immediate release from
prison.
In 2011, the prosecution obtained the DNA of
defendant, Gilliam’s cousin, and tested it against the

10a
DNA found on the blue sweater recovered from
Gilliam’s apartment in 2006. Defendant’s DNA was a
match for the DNA found on the sweater. Two years
later, in 2013, defendant was arrested and indicted.
At defendant’s trial in 2015, 29 witnesses
testified for the People, including, among others, the
group of people that were involved in the altercation
before the shooting; Gist, an eyewitness who had
known defendant from the neighborhood and saw
him during the fight; three other eyewitnesses to the
fight and shooting; Gilliam, defendant’s cousin and
accomplice; members of defendant’s family and one of
defendant’s friends; and certain police officers and
experts. Photographs, reports, ballistic evidence from
the scene and the blue sweater containing
defendant’s DNA were admitted at trial. One of
defendant’s friends testified for the defense.
At the trial, the eyewitnesses all described the
shooter as a thin African American man wearing a
blue shirt or blue sweater and a hat. Some of the
eyewitnesses also testified that they observed that
the shooter had a tattoo on his right forearm. At
some point after these witnesses testified, defendant
displayed to the jury his arms revealing “D.A,”
defendant’s nickname and “10453,” a zip code,
tattooed on his right arm. Additionally, the video of
Morris’s interview at the News 12 Bronx office was
introduced and played to the jury without sound to
show that Morris had no tattoos on his arms.
One of the detectives testified that after the
shooting, he spoke to Gist, who had recognized two
men involved in the fight, Gilliam and Morris. The
detective testified that the police gained access to

11a
Gilliam’s apartment, where they recovered from a
closet the blue sweater in a plastic bag. He testified
that when he opened the plastic bag, he smelled
burnt gunpowder residue. However, lab testing of the
sweater was inconclusive as to whether it contained
gunpowder residue.
Gist testified that she first told police that three
people were present at the initial altercation with the
other group – Gilliam, Morris and defendant - but
that she only saw Gilliam and defendant involved in
the fighting. She denied telling the police that only
Gilliam and Morris were involved. She identified
defendant in court and testified that she knew him
from the neighborhood. Defendant’s grandmother
testified that on Easter Sunday in 2006, the date of
the incident, defendant had been wearing a blue
sweater.
Police officers testified that when they were
searching Gilliam’s apartment, an officer overheard a
phone call between Gilliam’s brother William, who
was present in the apartment during the search, and
Gilliam, who was evading the police, in which Gilliam
asked William if the police were there and told
William to get rid of “the shirt.”
Gilliam testified as follows. After the shooting, he
saw Morris, his brother William, defendant and
defendant’s girlfriend in the lobby of his apartment
building, and defendant took off the blue sweater
once inside the apartment and told Gilliam to hold
two guns, Morris’s .357 caliber and defendant’s 9
millimeter. A friend called Gilliam and told him that
the police were looking for someone matching his
description for a shooting, and Gilliam relayed this

12a
information to defendant. Defendant told him to get
rid of the blue sweater and guns, so Gilliam took the
guns to a nearby crack house but left the sweater
behind in the apartment. Gilliam attempted to go
home, but he learned that the police were at his
building. When defendant later called to confirm that
Gilliam had gotten rid of the sweater, Gilliam told
him that he forgot. Gilliam then went to the home of
one of defendant’s friends, as directed by defendant,
where defendant told him they would flee to North
Carolina. That night, Gilliam, defendant, defendant’s
girlfriend and defendant’s son went to North
Carolina in a blue car. In North Carolina, they stayed
in several hotels and homes, changing location each
night. Gilliam cut his hair to alter his appearance
and threw away his cell phone. Defendant later told
Gilliam that he heard that Morris had told police that
Gilliam committed the shooting. He told Gilliam to
return to New York and to tell police that Morris was
the shooter. Defendant promised to hire Gilliam a
lawyer. Gilliam then returned to New York.
Thereafter, Gilliam met with detectives and
identified Morris as the shooter. However, Gilliam
testified that this first identification of Morris was
untrue and that when he learned that Morris had not
implicated him in the crime, as defendant had
suggested, Gilliam gave a second, truthful statement
to detectives that defendant was the actual shooter,
not Morris. Gilliam then made a third statement at
the District Attorney’s Office with his attorney
present that defendant was the shooter and that
Gilliam had disposed of the murder weapon. Gilliam
was thereafter arrested and charged with hindering
prosecution and tampering with physical evidence.

13a
As an initial matter, we find that the verdict was
supported by legally sufficient evidence and was not
against the weight of the evidence. “A verdict is
legally sufficient when, viewing the facts in the light
most favorable to the People, ‘there is a valid line of
reasoning and permissible inferences from which a
rational jury could have found the elements of the
crime proved beyond a reasonable doubt’” (People v
Danielson, 9 NY3d 342, 349 [2007]). “A sufficiency
inquiry requires a court to marshal competent facts
most favorable to the People and determine whether,
as a matter of law, a jury could logically conclude
that the People sustained its burden of proof” (id.).
When assessing a weight of the evidence claim, the
appellate court must first ascertain “[i]f based on all
the credible evidence a different finding would not
have been unreasonable” (People v Bleakley, 69
NY2d 490, 495 [1987]). If so, then the court must,
“like the trier of fact below, ‘weigh the relative
probative force of conflicting testimony and the
relative strength of conflicting inferences that may be
drawn from the testimony’” (id.). Although this Court
has the authority to set aside the verdict if it
determines that the jury “failed to give the evidence
the weight it should be accorded,” it should not
substitute itself for the jury, as “[g]reat deference is
accorded to the factfinder’s opportunity to view the
witnesses, hear the testimony and observe demeanor”
(id.).
The verdict was supported by legally sufficient
evidence and was not against the weight of the
evidence because the People proved, through their
witnesses and forensic evidence, that defendant was
correctly identified as the shooter, the only issue at

14a
trial. First, the People provided evidence that
defendant was the shooter with the blue sweater
containing DNA matching defendant’s DNA and not
the DNA of Morris or Gilliam. Several different
witnesses testified that the shooter was wearing a
blue sweater during the fight and the shooting.
Although there were slight variations in the
description of that item of clothing, with one witness
describing it as a blue short-sleeved shirt or polo,
most of the eyewitnesses described it as a blue
sweater. Both Gist and defendant’s grandmother
testified that on the day of the shooting, defendant
was wearing a blue sweater. Finally, one of the
detectives testified that the bag containing the blue
sweater smelled of gunpowder residue when he
recovered it from Gilliam’s apartment several hours
after the shooting and that he overhead Gilliam tell
his brother to discard the sweater.
Further, the People provided evidence that
defendant was the shooter with the overwhelming
evidence demonstrating defendant’s consciousness of
guilt. This evidence included that defendant fled to
North Carolina shortly after the incident with his
girlfriend, his son and Gilliam; that the group stayed
in several hotels and homes, changing location each
night; that defendant leased a residence under a false
name; that defendant sent Gilliam to New York to
implicate Morris as the shooter; that defendant
continued to hide out in North Carolina with his
girlfriend, despite the fact that defendant owned a
music studio in New York and defendant’s girlfriend
worked as a paramedic in New York; and that
defendant was ultimately apprehended in North
Carolina avoiding law enforcement.

15a
Additionally, the People provided evidence that
defendant was the shooter with the testimony of
multiple witnesses that the shooter had a tattoo on
his right arm and showed the jury that defendant did
indeed have a tattoo on his right arm. Moreover, the
People introduced at the trial the video of Morris’s
interview at the News 12 Bronx office showing that
Morris had no tattoos on his arms.
Finally, the People provided evidence that
defendant was the shooter with Gilliam’s testimony
that he had identified defendant as the shooter and
that defendant asked him to get rid of the blue
sweater that was later found by police in Gilliam’s
apartment and that contained DNA matching that of
defendant. Additionally, Gilliam provided credible
testimony as to why he initially identified Morris as
the shooter instead of defendant. He stated that he
only identified Morris as the shooter at the behest of
defendant after defendant told him that Morris had
implicated him in the crime. However, once he
learned that Morris had not implicated him in the
crime, he told detectives the truth, that defendant
was actually the shooter.
The assertion that Gilliam’s testimony should be
rejected because he was defendant’s accomplice and a
cooperating witness is without merit. An accomplice’s
testimony can be used to support a defendant’s
conviction if it is corroborated by other evidence (see
People v Besser, 96 NY2d 136, 143-144 [2001]).
“Independent evidence need not be offered to
establish each element of the offense or even an
element of the offense; the People’s burden is merely
to offer some nonaccomplice evidence ‘tending to
connect’ defendant to the crime charged” (id.). In

16a
addition to Gilliam’s testimony that defendant was
the shooter, the People elicited testimony from other
witnesses who identified defendant as being involved
in the altercation and testified that the shooter wore
a blue sweater, and provided physical and forensic
evidence, including the blue sweater found in
Gilliam’s apartment, which contained defendant’s
DNA. All of this evidence corroborated Gilliam’s
testimony and connected defendant to the crime
charged.
The fact that Morris was initially mistakenly
prosecuted for the murder and that several witnesses
initially identified Morris as the shooter does not
alter the conclusion that the verdict was supported
by legally sufficient evidence. The misidentifications
by the witnesses were explained by the
circumstances, including that they may have seen
Morris’s name and face through media coverage of
the murder before they made their identifications.
Moreover, at the trial, defense counsel emphasized
the theory that Morris had committed the shooting
and the jury properly rejected that theory based on
the trial evidence.
The court properly permitted the People to
introduce portions of Morris’s plea allocution, in
which he pleaded guilty to weapon possession and
admitted that at the time and place of the murder, he
possessed a .357 caliber handgun. Morris did not
testify at defendant’s trial and his plea allocution
would normally be inadmissible as testimonial
hearsay. However, the admission of portions of
Morris’s plea allocution did not violate defendant’s
right of confrontation because defendant opened the
door to this evidence (see generally People v Reid, 19

17a
NY3d 382, 387 [2012]). During the trial, defendant
created a misleading impression that Morris
possessed a 9 millimeter handgun, which was
consistent with the type used in the murder, and
introduction of the plea allocution was reasonably
necessary to correct that misleading impression.
Defense counsel failed to preserve any claim that
the court precluded him from calling the court
reporter who transcribed the 2007 grand jury
minutes of the testimony of Brenda Gonzalez, a
witness to the incident who had attempted to break
up the fight between the shooter and her friend, and
we decline to review it in the interest of justice. As an
alternative holding, we find that the court properly
precluded defense counsel from calling the 2007
grand jury reporter.
The facts as they relate to Gonzalez are as
follows. Shortly after the shooting, Gonzalez
identified Morris in a lineup. She testified as to her
interactions with Morris in both a 2006 grand jury
proceeding and a 2007 grand jury proceeding. During
her testimony in the 2006 grand jury proceeding,
Gonzalez did not mention Morris by name. However,
during her testimony in the 2007 grand jury
proceeding, Gonzalez did mention Morris by name.
At defendant’s trial, during cross-examination by
defense counsel, Gonzalez testified that she never
previously identified Morris by name. Defense
counsel then asked if she recalled answering a
question in the grand jury “back in 2006” in which
she identified Morris by name. Gonzalez responded
that she “never said that” and claimed that someone
must have inserted Morris’s name into the transcript.

18a
Defense counsel then attempted to impeach her by
reading from Gonzalez’s 2007 grand jury testimony,
in which Gonzalez had identified Morris by name.
However, defense counsel never questioned Gonzalez
about her 2007 grand jury testimony before
attempting to impeach her testimony with the 2007
grand jury transcript. The prosecutor objected to
defense counsel impeaching Gonzalez with the 2007
grand jury transcript, and the court sustained the
objection at that time.
The prosecutor then stated that he was going to
call the court reporter who transcribed the 2006
grand jury minutes because those were the only
grand jury minutes about which defense counsel
questioned Gonzalez and the 2006 grand jury
minutes did not make any reference to Gonzalez
identifying Morris by name. Defense counsel then
admitted on the record that perhaps he had made a
mistake as to which grand jury proceeding he
questioned Gonzalez about, but he asserted that the
difference in dates did not matter. Defense counsel
requested that the jury be told that the statements
he read and that were attributed to the 2006 grand
jury proceeding were actually made by Gonzalez
during the 2007 grand jury proceeding. However, the
prosecutor refused on the ground that Gonzalez had
not been properly confronted with the 2007 transcript
because defense counsel never questioned Gonzalez
about her 2007 grand jury testimony.
The prosecutor then called the 2006 grand jury
reporter, who testified that Gonzalez did not mention
Morris at that proceeding. Thereafter, defense
counsel made an application to the court to call the
2007 grand jury reporter. The court did not make a

19a
ruling on defense counsel’s request. Instead, it
advised the parties to prepare to address the issue at
some point in the future. For the remainder of the
trial, defense counsel never sought to obtain a ruling
from the court on whether he could call the 2007
grand jury reporter and he also never made an
application to the court to recall Gonzalez as a
witness to question her properly about her 2007
grand jury testimony.
During jury deliberations, the jurors requested a
portion of the 2006 grand jury reporter’s testimony.
At that point, defense counsel argued that the jury
was left with an inaccurate and unfair impression
about Gonzalez’s testimony because he was precluded
from calling the 2007 grand jury reporter. The court
noted defense counsel’s “exception.”
Based on the foregoing, we find that defendant
abandoned and failed to preserve his claim that he
was denied the right to call the 2007 grand jury
reporter in order to properly confront Gonzalez (see
e.g. People v Martinez, 257 AD2d 479, 480 [1st Dept
1999], lv denied 93 NY2d 876 [1999]). The court
never actually ruled against defendant on the issue of
whether he could call the 2007 grand jury reporter.
Rather, the court stated that it would have to think
about it. However, defense counsel did not seek a
subsequent ruling on this issue during the
testimonial portion of the trial. It was not until the
jury asked a question about the 2006 grand jury
reporter’s testimony that defense counsel raised the
issue again about wanting to call the 2007 grand jury
reporter. Defendant’s untimely request, during jury
deliberations, to call the 2007 grand jury reporter did
not preserve his claim (see e.g. People v Guilliard,

20a
309 AD2d 673 [1st Dept 2003], lv denied 1 NY3d 597
[2004]).
Our alternative holding is that the court properly
precluded defense counsel from calling the 2007
grand jury reporter in order to impeach Gonzalez
because defendant never properly confronted
Gonzalez with her 2007 grand jury testimony before
seeking to call the 2007 grand jury reporter. Despite
being made aware that he mistakenly questioned
Gonzalez about her 2006 grand jury testimony,
defense counsel never questioned Gonzalez about her
2007 grand jury testimony and never made an
application to the court to recall Gonzalez to question
her properly about her 2007 grand jury testimony.
None of the other evidentiary rulings challenged
by defendant warrant reversal. These various rulings
were provident exercises of the trial court’s discretion
in admitting and excluding evidence, in which the
court exercised its discretion in accordance with the
applicable legal standards relating to each issue. We
find that none of these rulings deprived defendant of
a fair trial, or of his right to present a defense.
Defendant failed to preserve his challenges to the
prosecutor’s opening statement and summation by
failing to object, or by failing to request further relief
after the court sustained an objection and gave a
curative instruction, and we decline to review them
in the interest of justice. As an alternative holding,
we find no basis for reversal (see People v Overlee,
236 AD2d 133 [1st Dept 1997], lv denied 91 NY2d
976 [1998]; People v D’Alessandro, 184 AD2d 114,
118–119 [1st Dept 1992], lv denied 81 NY2d 884
[1993]).

21a
The court did not violate defendant’s right to be
present when, following his outburst upon hearing
the guilty verdict, it immediately ordered him
removed from the courtroom before the jury was
polled. Earlier in the trial, the court had warned
defendant that any further outbursts by him would
result in his removal from the courtroom while his
trial continued (see People v Branch, 35 AD3d 228,
228-229 [1st Dept 2006], lv denied 8 NY3d 919
[2007]).
The court properly declined to dismiss the
indictment based on the People’s decision not to
present evidence to the grand jury about Morris, the
person who had originally been charged with the
murder. The prosecution has broad discretion in
presenting its case to the grand jury and is not
obligated to present exculpatory evidence (People v
Mitchell, 82 NY2d 509, 515 [1993]).
The court properly declined to hold a hearing
pursuant to Franks v Delaware (438 US 154 [1978])
to address the validity of statements made in the
affidavit filed in support of the search warrant for
defendant’s DNA swab. Defendant failed to show that
the affidavit was “knowingly false or made in reckless
disregard of the truth” (People v Tambe, 71 NY2d
492, 504 [1988]).
The
court
properly
denied
defendant’s
constitutional speedy trial motion after considering
the factors enumerated in People v Taranovich (37
NY2d 442 [1975]).
The court providently exercised its discretion in
denying defense counsel’s request for an adjournment
of sentencing to allow the defense to further

22a
investigate an alleged jury issue, and the ruling did
not result in any prejudice (see People v Rivera, 157
AD3d 545 [1st Dept 2018], lv denied 31 NY3d 1016
[2018]).
We perceive no basis for reducing the sentence.
All concur except Manzanet-Daniels,
J. who dissents in a memorandum as
follows:
MANZANET-DANIELS, J. (dissenting)
I do not believe that defendant’s identity as the
shooter was proven beyond a reasonable doubt. At a
minimum, he is entitled to a new trial. Defendant
was prejudiced when he was prevented from cross
examining an eyewitness concerning her prior
identification of another man, Nicholas Morris, as the
shooter, and the prosecution was allowed to elicit
testimony from the grand jury reporter in 2006 that
left the impression that the witness had never
previously identified another man as the shooter. I
therefore dissent.
Witnesses had occasion to observe Ronnell
Gilliam, a/k/a “Burger,” and another man, described
as a “taller” and “slimmer” man, in broad daylight, at
close range, for a 10-minute period during the initial
encounter. Words were exchanged, and the men
engaged in a fistfight. When the fight broke up, John
Erik gave chase but was unable to catch up with the
slender man. When he encountered Gilliam on the
way back to his friends, he was threatened that he
was “going to get shot for that.” The slim man
returned in a car with a gun. Witnesses testified that

23a
the slim man pointed the gun at Juan Carlos, who
was just emerging from a store, and began shooting.
During a canvass following the shooting,
detectives interviewed a witness who saw the
altercation but not the initial shooting. She identified
Gilliam and Nicholas Morris as the two men she saw.
Three of the four witnesses present identified
Nicholas Morris – who does not resemble defendant –
as the shooter in a lineup two days after the
shooting.1 Another witness from the neighborhood
who viewed a photo array stated that Morris
“look[ed] like the shooter.”
The eyewitness identifications, together with a 9
millimeter cartridge (of the same type recovered from
the victim), recovered during a search of Morris’
apartment, furnished probable cause to arrest Morris
and charge him with the murder. Morris was
observed to have bruising on his knuckles, indicating
to detectives that he had recently been in a fight.
Defendant was not arrested until 2013, some
seven years after the murder. He was never
identified by any of the initial eyewitnesses as the
shooter. The only witness who identified defendant as
the shooter at trial was Gilliam, the accomplice.
Accomplice
testimony
lacks
the
inherent
trustworthiness of the testimony of a disinterested
witness and must be viewed with a “suspicious eye,”
particularly where, as here, the accomplice hopes to
receive immunity or lenient treatment (see People v
Berger, 52 NY2d 214, 218-219 [1981]). Such
testimony must be regarded with “utmost caution”
1

The fourth was unable to make an identification.

24a
(id. at 219). Not only was Gillam a cooperating
witness seeking to avoid a murder sentence,2 but he
also changed his story repeatedly. First, he identified
Morris as the shooter. Later, and apparently at the
behest of Morris,3 his best friend, he identified
defendant as the shooter. By Gilliam’s own
admission, he failed to tell the police that Morris had
a .357 for fear of “implicating him.” He admitted that
he lied when he said defendant threw the gun in the
river. He testified that he had “come clean” during
his third interview with the police, but admitted on
cross that he had lied about disposing of the gun in
the river himself.
Significantly, while eyewitnesses described the
shooter’s sweater/shirt as blue, not one of them was
able to identify the blue garment in evidence as the
one worn by the shooter.4 The sweater had been
turned over by Gilliam’s brother during a search of
the apartment. The investigating detective testified
that he smelled gunpowder when he opened the bag
containing the sweater.
Yet Gilliam’s brother was never called as a
witness, despite being available; no gunpowder or
residue consistent with the discharge of a firearm
was detected on the shirt, although it was examined
Gilliam was promised a five-year sentence in exchange for
his cooperation.
2

Witnesses testified that Morris called Gilliam and spoke
to him while Gilliam was being interviewed at the police station.
3

Details also varied by witness, from “polo shirt” to
“sweater” and from long-sleeved to short-sleeved. Some
described the shirt as having a logo or “embroiderment” design;
others did not observe a logo or design.
4

25a
for trace evidence shortly after the incident; and the
detective did not record his observation in the
contemporaneous DD-5 report or any of the
paperwork in the case, despite what he agreed was
its obvious significance.
In its recitation of the events of the day in
question, the majority does not sufficiently
differentiate the initial, 10-minute encounter from
the subsequent, fatal encounter during which the
shooter and his friends returned in a car. The
sequence of events is critical, however, because none
of the eyewitnesses was able to identify defendant as
the shooter during the second, fast-moving encounter.
They testified only that the shooter wore a blue
sweater/shirt. The prosecution thus relied on a theory
that the blue-shirted shooter was the same slim man
as had been observed during the initial encounter.
Enough time elapsed between the encounters,
however, that he simply cannot be presumed to be
the same person.
The majority also implies that Gist identified
defendant as the shooter; however, she did no such
thing. Gist admitted that she observed only the
initial encounter and did not observe the shooting.
Further, during a canvass following the shooting, she
identified Gilliam and Morris as the two individuals
she saw during the initial encounter.
Defendant was denied his right to confrontation
when the court prevented counsel from crossexamining a critical witness to establish that she had
identified Morris unequivocally as the shooter in
testimony before the grand jury in 2007. The witness
had testified before the grand jury twice, in 2006 and

26a
2007; the latter time she identified Morris by name
as the shooter. When the witness maintained at trial
that she never identified Morris as the shooter before
the grand jury, defense counsel attempted to impeach
her with prior inconsistent statements she made to
the grand jury in 2007. Defense counsel asked the
witness whether she wouldn’t agree that events were
fresh in her mind when she testified before the grand
jury in “2006,” referring to the incorrect year, but
reading verbatim from the transcript of the 2007
proceedings, in which the witness unequivocally
identified Morris as the slender man involved in the
shooting.
The People asked to call the grand jury reporter
from 2006 so that the jury would be left with the
mistaken impression that the witness had identified
Morris by name as the shooter in 2006. Defense
counsel asked that the jury be instructed that the
statements he cited during cross-examination of the
witness had been made in the 2007 proceedings so as
not to leave an unfair impression that the statements
had never been made. The prosecutor objected and
refused to so stipulate, asserting that defense counsel
had “made specific reference to 2006, and that is
what is in the record.”
The People called the 2006 reporter as a witness,
eliciting testimony via extended question-and-answer
that left the jury with the distinct impression that
the witness had never identified Morris as the
shooter, as defense counsel had suggested during his
cross examination. This testimony had the effect of
vouching for an untruthful witness and subverting
what was in fact the truth – that the witness had
identified Morris, albeit in 2007 – and left the jurors

27a
with the impression that defense counsel himself was
being disingenuous.
When proceedings reconvened, defense counsel
again asked that the jury be instructed or informed
that the passages he had read were accurate
reflections of the witness’s testimony before the
grand jury in 2007. The prosecutor opposed, asserting
that defense counsel had never properly confronted
the witness with her 2007 statements. The court was
inclined to agree, noting that “because the witness
was not impeached by reference expressed to 2007
and because the questions could reasonably be
interpreted as being 2006 grand jury testimony, there
is no basis for calling the stenographer from 2007.”
The court’s ruling left the jury with the
impression that the witness had never previously
identified Morris as the shooter and that the defense
was fabricating evidence. The jury indeed appeared
to be confused as it twice asked to rehear the 2006
court reporter’s testimony concerning the witness’s
prior testimony.
While the court initially appeared to recognize
that it would be unfair for the jury to hear only a
portion of the eyewitness’s prior testimony, that is
exactly what transpired when the court allowed the
testimony of the 2006, but not the 2007 court
reporter. The prosecutor argued extensively during
summation that defense counsel had attempted to
mislead the jury when he “tried to get Brenda
Gonzalez to admit she said things before a grand jury
in 2006 that she never said . . . That’s why [the
People] had to call the grand jury reporter to prevent
the facts from being manipulated.” These arguments

28a
were designed to mislead the jury to conclude that
the witness had never identified Morris under oath to
the grand jury. Indeed, the jury never learned that
the witness had identified Morris as the shooter
under oath at the 2007 grand jury proceeding. The
failure to allow cross-examination of the witness
concerning her prior identification of Morris as the
shooter deprived defendant of a fair trial, which
warrants reversal and remand for a new trial (see
People v. McLeod, 122 AD3d 16 [1st Dept 2014]).
THIS CONSTITUTES THE DECISION AND
ORDER OF THE SUPREME COURT, APPELLATE
DIVISION, FIRST DEPARTMENT.
ENTERED: JUNE 11, 2019

/s/ Susanna Rojas
CLERK

29a
APPENDIX C
COURT OF APPEALS OF NEW YORK
The People of the State of New York,
Appellant,
v.
Lamarr Reid,
Respondent.
Argued May 1, 2012
Decided June 5, 2012
OPINION OF THE COURT
Pigott, J.
This appeal raises the question whether a
defendant can open the door to the admission of
testimony that would otherwise be inadmissible
under the Confrontation Clause of the United States
Constitution. We hold that he can, and, in this case,
he did.
On June 8, 2001, a man was shot dead at the door
of an Albany apartment where marijuana was being
sold. Neighborhood residents saw two young men
running away from the area. Four rifle casings were
found at the murder scene—ammunition that is used
in an AK-47 assault rifle. Four years later, in 2005, a
friend with whom the victim had been watching
television on the night of the murder identified
Shahkene Joseph as a suspect, telling the police that
Joseph had bought marijuana from the apartment
shortly before the shooting. After further
investigation, Joseph and defendant Lamarr Reid

30a
were arrested, and charged with murder in the
second degree.
Joseph confessed to his involvement in the
killing. He admitted that he and Reid had intended
to rob residents of the apartment, that he saw the
victim standing in the doorway, and that he and Reid
fired their weapons through the door. In response to
an omnibus motion by Reid, County Court severed
Reid’s and Joseph’s trials, citing Bruton v United
States (391 US 123 [1968]).
During Reid’s trial, the jury heard evidence
concerning the events on the night of the killing—
that Joseph visited the apartment before the killing,
asking to buy marijuana; that Joseph and Reid gave
a rifle or shotgun to a person who had once been in
the same street gang as Reid; and that Reid told this
person that he had “caught a jux” and “[c]aught a
vic,” meaning that he had robbed someone. Two
neighborhood residents testified that they had seen
“two young men running with hooded sweat shirts” a
block away from the crime scene.
The jury also heard that the day after the murder
Reid told another acquaintance that “[h]e had caught
a body” the previous night, i.e., that he had killed
someone. Reid told this acquaintance that he had
intended to carry out a robbery but met with
resistance, that he had shot through the door or
through the crack of the door, and that he had been
with Shahkene Joseph and Charles McFarland. Reid
said he had used a weapon he called the “Chopper,”
which the jury learned was the name given to a
particular AK-47 rifle used by Reid’s gang.

31a
During cross-examination of this acquaintance,
defense counsel had the witness confirm that
McFarland himself had been present at this
conversation. Defense counsel elicited that the
witness had told the police about McFarland, and
then asked him, “But you are aware that Charles
McFarland has never been arrested for this, right?
. . . Only Lamarr Reid and Shahkene Joseph,
right?”—to which the witness assented.*
Reid himself testified, and the defense also called
a detective and a federal agent involved in the
investigation. During direct examination of the
detective, defense counsel asked questions designed
to suggest that the investigation had been
inadequate, a theme first outlined in counsel’s
opening statement. On direct examination of the
federal agent, defense counsel asked whether he had
received information, during the course of his
investigation, that McFarland was involved in the
shooting. The agent agreed he had, and questioning
followed concerning the source of that information,
during which defense counsel suggested that there
was more than one source.
On cross-examination of the agent, the
prosecutor elicited that the information that
McFarland had been present at the murder was from
Reid’s acquaintance “saying what he had heard, not
what he had seen or anything.” The prosecutor then
The jury was also told that Reid and a friend had been
walking past the site of the murder some two years later when
Reid told the friend “to get off the sidewalk, have some respect
for the dead.” Reid explained that he had tried to rob someone
there and ended up shooting the man.
*

32a
said to the agent, “But in fact you also received eye
witness testimony about who exactly was at the
murder didn’t you?” The agent responded in the
affirmative. The prosecutor then added, “And that
eye witness testimony was that Charles McFarland
certainly wasn’t there; isn’t that true?” Again, the
agent assented.
Defense counsel objected, arguing that no
eyewitness had testified to seeing the men who had
carried out the shooting and that the jury would infer
that Shahkene Joseph was the eyewitness who had
told the police “who exactly was at the murder.”
County Court overruled the objection, reasoning,
inter alia, that defense counsel had “opened the door
about McFarland being there.”
The prosecutor introduced letters that Reid had
written from prison. Most pertinently, the letters
alluded to Joseph, whom Reid was trying to contact.
They also contained a reference to “catch[ing] bodies,”
words similar to the expression Reid had been heard
to use to describe the June 8, 2001 killing.
During summation, defense counsel returned to
the theme that the police investigation had been
inadequate and generated insufficient evidence. The
jury was unpersuaded, finding Reid guilty of murder
in the second degree (Penal Law § 125.25 [1]).
Reid filed a motion under CPL 330.30 seeking to
set the verdict aside on several grounds, including
the admission of testimony concerning an eyewitness
to the crime who did not testify. County Court denied
the motion, and Reid, duly convicted, was sentenced
to imprisonment for 25 years to life.

33a
Defendant appealed, raising a number of issues.
The Appellate Division reversed County Court’s
judgment and ordered a new trial, holding that Reid’s
constitutional right to confront witnesses had been
violated. “Because Joseph was unavailable and his
pretrial statement to the police regarding who was
present at the murder scene was testimonial,
admission of that statement violated defendant’s
right to confront his accusers” (82 AD3d 1495, 14971498 [3d Dept 2011], citing Crawford v Washington,
541 US 36, 53-54 [2004]; People v Rawlins, 10 NY3d
136, 147-148 [2008]). The Appellate Division rejected
the People’s contention that defendant had opened
the door to the prosecutor’s questions, and concluded
that the error identified was not harmless (82 AD3d
at 1498).
The Appellate Division also addressed some, but
not all, of Reid’s remaining challenges to his
conviction, ruling that “the introduction to the grand
jury of some improper evidence did not require
dismissal of the indictment” (id. at 1496), that Reid’s
conviction was supported by legally sufficient
evidence and not against the weight of the evidence
(id. at 1496-1497), and that County Court properly
admitted the letters written by Reid from prison (id.
at 1497).
A Judge of this Court granted the People leave to
appeal. We now reverse.
As the People concede, the admission of the
testimony that a nontestifying eyewitness told the
police who had been present at the murder violated
the Confrontation Clause, unless the door was
opened to that testimony by the defense counsel’s

34a
questioning of witnesses. The question then becomes
whether a defendant can open the door to testimony
that would otherwise violate his Confrontation
Clause rights. Several United States Courts of
Appeals have held that “a defendant can open the
door to the admission of evidence otherwise barred by
the Confrontation Clause” (United States v LopezMedina, 596 F3d 716, 733 [10th Cir 2010]; see also
e.g. United States v Holmes, 620 F3d 836, 843-844
[8th Cir 2010]; United States v Cruz-Diaz, 550 F3d
169, 178 [1st Cir 2008]; United States v Acosta, 475
F3d 677, 683-684 [5th Cir 2007]; but see United
States v Cromer, 389 F3d 662, 679 [6th Cir 2004]).
We agree with this consensus.
If evidence barred under the Confrontation
Clause were inadmissible irrespective of a
defendant’s actions at trial, then a defendant could
attempt to delude a jury “by selectively revealing only
those details of a testimonial statement that are
potentially helpful to the defense, while concealing
from the jury other details that would tend to explain
the portions introduced and place them in context”
(People v Ko, 15 AD3d 173, 174 [1st Dept 2005]). A
defendant could do so with the secure knowledge that
the concealed parts would not be admissible under
the Confrontation Clause. To avoid such unfairness
and to preserve the truth-seeking goals of our courts
(see Tennessee v Street, 471 US 409, 415 [1985]), we
hold that the admission of testimony that violates the
Confrontation Clause may be proper if the defendant
opened the door to its admission.
Today’s holding is consistent with our precedent
that statements taken in violation of Miranda v
Arizona (384 US 436 [1966]) are admissible if a

35a
defendant opens the door by presenting conflicting
testimony. Just as “[t]he shield provided by Miranda
cannot be perverted into a license to use perjury by
way of a defense, free from the risk of confrontation
with prior inconsistent utterances” (Harris v New
York, 401 US 222, 226 [1971]), so the Confrontation
Clause cannot be used to prevent the introduction of
testimony that would explain otherwise misleading
out-of-court statements introduced by the defendant.
This does not complete our inquiry, however.
Whether a defendant opened the door to particular,
otherwise inadmissible evidence presented to the jury
must be decided on a case-by-case basis. The inquiry
is twofold—“whether, and to what extent, the
evidence or argument said to open the door is
incomplete and misleading, and what if any
otherwise inadmissible evidence is reasonably
necessary to correct the misleading impression”
(People v Massie, 2 NY3d 179, 184 [2004]).
Here, by eliciting from witnesses that the police
had information that McFarland was involved in the
shooting, by suggesting that more than one source
indicated that McFarland was at the scene, and by
persistently presenting the argument that the police
investigation was incompetent, defendant opened the
door to the admission of the testimonial evidence,
from his nontestifying codefendant, that the police
had information that McFarland was not at the
shooting.
Moreover, we conclude that the specific,
otherwise inadmissible evidence heard by the jury—
that an eyewitness to the shooting, who knew exactly
who was there, had told the police that McFarland

36a
was not present—was reasonably necessary to correct
defense counsel’s misleading questioning and
argument. There is justification for the view that the
prosecutor could most effectively prevent the jury
from reaching the false conclusion that McFarland
had been present at the murder by eliciting that a
person with immediate knowledge of the situation—
an eyewitness who knew exactly who was at the
murder—had told the police McFarland was not
there. We conclude that County Court acted within
its discretion in permitting the testimony.
Finally, we agree with the Appellate Division
that the integrity of the grand jury was not impaired,
that Reid’s letters were properly admitted, and that
his conviction was supported by legally sufficient
evidence. The Appellate Division should now consider
the facts and issues raised by Reid that it declined to
reach.
Accordingly, the order of the Appellate Division
should be reversed and the case remitted to the
Appellate Division for consideration of the facts and
issues raised but not determined on the appeal to
that court.
Chief Judge Lippman and Judges Ciparick,
Graffeo, Read, Smith and Jones concur.
Order reversed, etc.

